IN THE COURT OF CRIMINAL
CRIMINAL APPEALS
OF THE STATE OF OKLAHOM4TATE OF OKLAHOMA
GEORGE A. CHRISTIAN, JR.,

JUL 1 7 2020
)
)

Petitioner,

)

! JOHN D. HADDEN
CLERK

)

v.

)

No. PC-2020-376

)

THE STATE OF OKLAHOMA,

)
)

Respondent.

)

ORDER AFFIRMING DENIAL OF POST-CONVICTION RELIEF AND
BARRING PETITIONER FROM FILING ANY FURTHER REQUESTS
FOR POST-CONVICTION RELIEF IN OKLAHOMA COUNTY
DISTRICT COURT CASE NO CF-2002-968
On June 5, 2020, Petitioner Christian, pro se, appealed to this
Court from the denial of his Application for Post-Conviction Relief in
Oklahoma County District Court Case No. CF-2002-968.

The

District Court’s order is AFFIRMED.
On June 9, 2003, Christian, represented by counsel, entered a
guilty plea to Fourth Degree Arson After Former Conviction of Two or
More

Felonies in

Oklahoma County Case

No.

CF-2002-968.

Christian was sentenced to three (3) years with all but the first thirty
(30) days suspended, to be served concurrently with his sentence in

PC-2020-376, Christian v. State

Oklahoma County Case No. CF-1998-3634. Christian did not seek
to withdraw his plea or otherwise appeal his conviction.

A review of

this Court’s docket reveals this is Christian’s first application for
post-conviction relief filed in this matter. According to his pleading
filed with this Court, Christian has completed service of his sentence
in Oklahoma County Case No. CF-2002-968.
Christian’s application filed with this Court alleges that counsel
was ineffective; that his plea was not knowing and voluntary because
he was not advised of the elements of the charged offense; that he is
factually innocent of the charged offense; that trial counsel did not
properly pursue and present evidence and witnesses that would
have supported a finding that Christian was factually innocent; and
that he is entitled to a certiorari appeal out of time,

Christian

requests that his case be remanded to the district court with
“instructions to make findings of fact and conclusions of law based
on the factual basis of the crime” or to set aside his judgment as void
on its face.

PC-2020-376, Christian v. State

In an order entered and filed April 27, 2020, the District Court
of Oklahoma County, the Honorable Natalie Mai, District Judge,
denied Christian’s request for relief. Judge Mai first determined that
Christian’s sentence in this case expired on December 18, 2010. On
July 29, 2019, Christian filed three (3) applications for post
conviction relief in the district court, which the court combined and
addressed as one application.

Two of the applications sought a

direct appeal out of time and the third application raised numerous
allegations

of

error

collaterally

attacking

Christian’s

arson

conviction. Judge Mai found that Christian’s claims were barred by
laches, as his sentence had expired and he had waited more than 16
years to seek redress of these alleged errors. Even had his claims
not been barred by laches, Judge Mai determined that Christian was
not entitled to a certiorari appeal out of time because he did not
establish that he was denied an appeal through no fault of his own.
The court also found that Christian’s claims could have been raised
Because Christian presented no

on direct appeal, but were not.

valid reason for failing to timely raise these claims either on direct

3

PC-2020-376, Christian v. State

appeal or in a timely application for post-conviction relief, Judge Mai
found the claims were waived. The court denied Christian’s request
for post-conviction relief and his request for an appeal out of time.
Christian’s requests for an evidentiary hearing and appointment of
counsel were also rejected.
We agree.

The Post-Conviction Procedure Act is not a

substitute for a direct appeal, nor is it intended as a means of
providing a Petitioner with a second direct appeal. Fowler v. State,
1995 OK CR 29, If 2, 896 P.2d 566, 569; Mcdnes v. State, 1979 OK
CR 71, ^f 4, 597 P.2d 774. A claim that could have been raised on
direct appeal, but was not, is waived. Fowler, 1995 OK CR 29 at | 2
896 P.2d at 569; Fox v. State, 1994 OK CR 52, If 2, 880 P.2d 383
384-85; Johnson v. State, 1991 OK CR 124, If 4, 823 P.2d 370, 372.
We find nothing in Christian’s appeal record supporting his
claim that he was denied an appeal through no fault of his own.
Additionally, the record contains no explanation for Christian’s delay
of more than 16 years in seeking redress of the alleged errors he
claims resulted in his conviction. We find no error in the trial court’s

4

PC-2020-376, Christian v. State

ruling warranting relief. As Christian has failed to show entitlement
to relief in a post-conviction proceeding, the order of the District
Court of Oklahoma County, denying his application for post­
conviction relief in Case No. CF-2002-968 is AFFIRMED.
IT IS THE ORDER OF THIS COURT that Petitioner has
EXHAUSTED his State remedies regarding the issues raised in his
application for post-conviction relief, challenging his conviction in
Oklahoma County Case No. CF-2002-968.

Subsequent application

attempting to collaterally appeal Petitioner’s conviction in this matter
is BARRED, and the Clerk of this Court is directed to accept NO
FURTHER FILINGS from Petitioner in Oklahoma County Case No.
CF-2002-968 without prepayment of filing fees. See, Rule 5.5, Rules
of the Oklahoma Court of Criminal Appeals, Title 22, Ch. 18, App.
(2020).
The Clerk of this Court is directed to transmit a copy of this
order to the District Court of Oklahoma County, the Honorable
Natalie Mai, District Judge; the Court Clerk of Oklahoma County;
Petitioner and counsel of record.

5

PC-2020-376, Christian v. State

Pursuant to Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch.18, App. (2020), the MANDATE is ORDERED
issued upon the delivery and filing of this decision.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF THIS COURT

this j

day of

, 2020.

udge

DAVID B.

DANA KU

, Vice Presiding Judge

GARY L. LUMPKIN, Judge

ROBERT L. HUDSON, Judge

SCOTT ROWLAND, Judge
ATTEST:

D,
Clerk
PA

X
6

FILED IN DISTRICT COURT
OKLAHOMA COUNTY
IN THE DISTRICT COURT OF OKLAHOMA COUNTY
APR 2 7 2020
STATE OF OKLAHOMA
GEORGE A. CHRISTIAN, JR.,
Petitioner,
v.

)

THE STATE OF OKLAHOMA,
Respondent.

RICK WARREN

)
)
)
)

COURT CLERK

29.

Case No. CF-2002-968

)
)
)
)

ORDER DENYING APPLICATION FOR POST-CONVICTION RELIEF
This matter comes on for consideration of the Petitioner’s Application for PostConviction Relief filed in the above-referenced cases and the State’s Response thereto, and the
Court being fully advised finds as follows:
MATERIALS REVIEWED FOR DECISION
1. Petitioner’s two (2) Applications for Post-Conviction Relief; Application for PostConviction Relief Seeking an Order Recommending Granting an Appeal Out of
Time with Motion to Withdraw Plea; Brief in Support of Application for PostConviction Relief; Motion to Withdraw Plea of Guilty; and Motion for
Appointment of Counsel and Brief in Support, filed on July 29, 2019.
2. The State’s Response to Application for Post-Conviction Relief, and attachments
thereto, filed on August 26,2019.
3. Petitioner’s Judgment and Sentence for Oklahoma County District Court Case No
CF-2002-968.
S' r
4. The district court files for Oklahoma County District Court Case No. CF-2002-968.
FINDINGS OF FACT
1.

r

On June 9, 2003, Petitioner, represented by counsel, entered an agreed plea of

guilty to the crime of Arson in the Fourth Degree, AFCF (2 or more), as charged in

Oklahoma County District Court Case No. CF-2002-968.1 The Honorable Susan W. Bragg
accepted the plea and continued the matter for formal sentencing.
2.

On June 24, 2003, Judge Bragg sentenced Petitioner in accordance with the

negotiated plea agreement to three (3) years imprisonment, with all except the first thirty
(30) days suspended upon certain terms and conditions of probation, to be served
concurrently with Petitioner’s sentence in Oklahoma County District Court Case No. CF98-3634.
3.

At the time of sentencing, Petitioner was advised of and acknowledged his right

to appeal and the manner in which to invoke that right. However, he seek an appeal.
4.

On December 2, 2005, the State filed an application to revoke Petitioner’s

suspended sentence, alleging he violated the terms and conditions of his probation by
committing the new crimes of Burglary in the Second Degree and Domestic Abuse, as
alleged in Oklahoma County District Court Case No. CF-2005-3776.
5.

Petitioner, represented by counsel, entered a blind plea of guilty to the State’s

application on September 8, 2006. The Honorable Jerry D. Bass accepted the plea and
continued the matter for sentencing.
6.

On February 26, 2007, Judge Bass revoked Petitioner’s suspended sentence in

full but set the matter for a one-year judicial review.
7.

At the time of revocation, Petitioner was advised of his appeal rights. However,

he did not appeal.

Pursuant to plea negotiations, the State agreed to dismiss Count 2, Endangering Human Life During the
Commission of Arson, as well as the second page of the Information. The State also filed a written motion for the
Court to impose a suspended sentence after Petitioner had been previously convicted of two or more felonies. See
22 O.S. § 991a(C).

2

8.

On December 19, 2007, Petitioner appeared with counsel for a judicial review

hearing pursuant to 22 O.S. § 982a. At that time, Judge Bass modified his sentence to three
(3) years imprisonment, all suspended upon certain terms and conditions of probation, to
be served concurrently with his sentences in Oklahoma County District Court Case Nos.
CF-2005-3776 and CF-2006-1655,
9.

Petitioner’s suspended sentence in this case expired on December 18, 2010.

10.

On July 29, 2019, Petitioner, pro se, filed three Applications for Post-

Conviction Relief, a supporting brief, and a Motion to Withdraw Plea of Guilty, which this
Court construes altogether as one original Application for Post-COnviction Relief. See 22
O.S. § 1086; Rule 2.1(E), Rules ofthe Oklahoma Court of Criminal Appeals, Title 22, Ch.
18 App. (2019). Two of the post-conviction applications request a recommendation for an
appeal out of time from Petitioner’s original plea of guilty. The remaining application
raises the following propositions of error (verbatim) collaterally attacking his conviction:
Proposition I

The Petitioner assert(s) his actually Innocent, due to
ineffective assistance of counsel in failing to conduct a
reasonable pre-trial investigation.

Proposition II

. Petitioner was convicted on the basis of a guilty plea that
was the product of ineffective assistance of counsel, that
denied due process of law and equal protection of the law
by the state court’s to the sufficiency of evidence to the
first degree arson.

Proposition III

Trial Court denied due process of law to a fair and
impartial trial due to prosecutorial misconduct and defense
counsel
negligence,
when
the
prosecutor’s
misrepresentation of fact or false information to first
degree arson.

Proposition IV

Petitioner had ineffective assistance of counsel, for the
advice counsel gave Mr. Christian to plead guilty did not
meet the competency standard demanded of attorneys in a

3

criminal case due to the defective strategy of defense
theory to first degree arson, that denied due process of law.
Proposition V

Trial court erred in failure to dismiss on first degree arson
due to Actual Innocence, for erroneousness entering a
guilty plea to a innocence client that denied due process of
law.

Proposition VI

Ineffective assistance of counsel for inadequate
representation of a conflict of interest of defense theory
about the facts of the first degree arson and if the state of
the facts present significant doubt as to the first degree
arson.

Proposition VII

Ineffective assistance of counsel for failing to advance all
possible reasons showing why he did not submit critical
evidence and police reports in possession of the state
violating Brady, of the statement of a key witness, Juanita
and failure to investigate the criminal history of a key
witness.

FINDINGS OF FACT & CONCLUSIONS OF LAW
I. Laches
Petitioner has waited 16 years since he entered his guilty plea and 9 years since he fully
satisfied and discharged his sentence in this case to raise these issues for the very first time. He
offers no reason or excuse for the inordinate delay. Under the facts and circumstances of this
case, the Court finds consideration of his claims, including his request for an appeal out of
time, is properly barred by the doctrine of laches. Thomas v. State, 1995 OK CR 47, f 15, 903
P.2d 328, 330; Paxton v. State, 1995 OK CR 46, Tf 8, 903 P.2d 325, 327.
But even if laches were not applied here, as discussed infra, Petitioner is not entitled to
relief.

II. Appeal Out of Time
A defendant seeking an appeal out of time must establish he was denied such appeal
through no fault of his own. Rule 2.1(E)(1), Rules ofthe Oklahoma Court of Criminal Appeals,
4

Title 22, CL 18 App. (2019); Dixon v. State, 2010 OK CR 3, If 5, 228 P.3d 531, 532. A
defendant waives his right to appeal when he is aware of that right but does not bring an appeal
within the statutory time period. Bickerstaffv. State, 1983 OK CR 116, 8, 669 P.2d 778, 779;
see also Whitworth v. State, 1969 OK CR 64,15,450 P.2d 851, 852. The decision of whether
to take an appeal is the defendant’s alone to make. Jones v. Barnes, 463 U.S. 745, 751, 103 S.
Ct. 3308,3312, 77 L.Ed. 2d 987 (1983); Buchanan v. Page, 1969 OK CR 86, If 5,451 P.2d 17,
18. “Where a defendant knowingly fails to indicate to the Court or to his attorney that he desires
to appeal his conviction, he cannot he heard to complain that he has been denied any right.
Accordingly, such a defendant forfeits the right to appeal his conviction.” Martin v. Page, 1969
OK CR 209, If 5,457 P.2d 829, 831.
In this case, the record reflects Petitioner was properly advised of his appeal rights.
Thus, if he desired to pursue an appeal, it was his responsibility to timely advise his attorney
or the Court of that desire. Petitioner presents neither argument nor evidence supporting that
he ever manifested such an intent. He has also not shown that he was prevented from doing so.
By failing to take steps to timely invoke his right to appeal, Petitioner effectively forfeited that

right.
The Court of Criminal Appeals has long held that “permitting one to by-pass or waive a
timely appeal and proceed under [the Post-Conviction Procedure Act] without first establishing
sufficient reason erodes the limitations and undermines the purpose of the statutory direct
appeal.” Webb v. State, 1983 OK CR 40, ^f 3, 661 P.2d 904, 905. Petitioner fails to establish he
was denied his right to appeal through no fault of his own. Therefore, this Court declines to
recommend that he be granted an appeal out of time.
III. Procedural Bar

5

/

Each of Petitioner’s remaining propositions of error could have been raised in a timely
certiorari appeal. The Court of Criminal Appeals has made clear that the Post-Conviction
Procedure Act, 22 O.S. §1080, et seq., is neither a substitute for a direct appeal nor a means
for a second appeal. Maines v. State, 1979 OK CR 71, f 4, 597 P.2d 774, 775-76; Fox v. State,
1994 OK CR 52, f 2, 880 P.2d 383, 384. “[IJssues that were not raised previously on direct
appeal, but which could have been raised, are waived for further review.” Logan v. State, 2013
OK CR 2, U 3, 293 P.3d 969, 973; see also Johnson v. State, 1991 OK CR 124,

3-4, 823

P.2d 370, 372; Castro v. State, 1994 OK CR 53,f2, 880 P.2d 387, 388.
An exception to this rule exists where a court finds sufficient reason for not asserting
or inadequately presenting an issue in prior proceedings. 22 O.S. § 1086. This requires a
showing that some impediment external to the defense prevented the petitioner and counsel
from properly raising the claim. Johnson, 1991 OK CR 124, f 7, 823 P.2d at 373. “Petitioner
has the burden of establishing that his alleged claim could not have been previously raised and
thus is not procedurally barred.” Robinson v. State, 1997 OK CR 24, ^[17, 937 P.2d 101, 108.
In this matter, Petitioner’s challenges to his conviction and the validity of his guilty
plea could have been raised in a timely appeal from his guilty plea had he pursued that course.
Petitioner offers no sufficient reason for such claims to be considered on post-conviction
review. As a consequence, consideration of the issues raised in Propositions I-VII of
Petitioner’s Application for Post-Conviction Relief, as well as in his Motion to Withdraw Plea
of Guilty, are procedurally barred by the doctrine of waiver. The same are therefore denied.
IV. Request for Hearing and Appointment of Counsel
This Court has disposed of Petitioner’s Application as a matter of law based upon the
pleadings and the record. There is no issue of material fact for which an evidentiary hearing is

6

necessary to resolve. 22 O.S. §§ 1083,1084; Fowler v. State, 1995 OK CR 29, If 8, 896 P.2d
566,566; Logan v. State, 2013 OK CR 2, Iflf 20-22,293 P.3d 969,978. The Court further finds
the assistance of counsel is not necessary to provide a fair determination of meritorious claims.
22 O.S. § 1082. Therefore, Petitioner’s request for appointment of post-conviction counsel is
denied.
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that Petitioner’s
Application for Post-Ccmyiction Relief is DENIED.
Dated thisday

NATALIE MAI
DISTRICT JUDGE

NOTICE OF RIGHT TO APPEAL
A final judgment under this act [Post-Conviction Procedure Act, 22 O.S. §
1080, etseq.] may be appealed to the Court of Criminal Appeals on petition
in error filed either by the applicant or the State within thirty (30) days
from entry of the judgment. Upon motion of either party on filing of notice
of intent to appeal, within ten (10) days of entering the judgment, the
district court may stay the execution of the judgment pending disposition
on appeal; provided the Court of Criminal Appeals may direct the vacation
of the order staying the execution prior to final disposition of the appeal.
22 O.S. § 1087. The party desiring to appeal from the final order must file
a Notice of Post-Conviction Appeal with the Clerk of the District Court
within twenty (20) days from the date the order is filed in the District
Court. Rules 2.1(E)(1), 5.2(C)(1), Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18 App. (2019).

7

CERTIFICATE OF SERVICE
I hereby certify that on the

day of

/2020,1 mailed a certified copy of the

above and foregoing order, with postage thereon fully prepaid, to:
George A. Christian, DOC # 276900
Lexington Correctional Center
P.O. Box 260
Lexington, OK 73051
PETITIONER, PRO SE
and that a true and correct copy of the above and foregoing order was hand-delivered to:
Jennifer M. Hinsperger, Assistant District Attorney
Oklahoma County District Attorney’s Office
COUNSEL FOR RESPONDENT _

8

